                          Federal Emergency Management Agency
                                      Office of Inspector General – Audits Division
                                              Western District Audit Branch
                                               1111 Broadway, Suite 1200
                                             Oakland, California 94607-4052



                                               December 18, 2002


MEMORANDUM FOR:                    Jeff Griffin
                                   Regional Director, Region IX




FROM:                              Robert J. Lastrico
                                   Western District Audit Manager

SUBJECT:                           City of Sacramento, California
                                   Public Assistance Identification Number 067-6400
                                   FEMA Disaster Number 1155-DR-CA
                                   Audit Report Number W-05-03

The Office of Inspector General audited public assistance funds awarded to the City of
Sacramento, California (City). The objective of the audit was to determine whether the City
expended and accounted for FEMA funds according to Federal regulations and FEMA
guidelines.

The City received a public assistance award of $1.4 million from the California Office of
Emergency Services (OES), a FEMA grantee, for debris removal and emergency repairs to
structures damaged as a result of flooding that occurred on December 28, 1996, to April 1, 1997.
The award provided for 75 percent FEMA funding for 6 large projects and 24 small projects.1
The audit covered the period December 28, 1996, to August 31, 1999, and included a review of
3 large projects and 2 small projects with a FEMA award of $985,733.

We performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. The audit included a review
of FEMA’s and OES’ records, tests of the City’s accounting records, a judgmental sample of
project expenditures, and other auditing procedures we considered necessary under the
circumstances. We reviewed small projects to verify eligibility, completion of the work, and to
ensure cost items were not included in other claims.
                                     RESULTS OF AUDIT

1
  According to Federal regulations in effect at the time of the disaster, a large project was defined as a project
costing $46,000 or more and a small project was defined as one costing less than $46,000.
The City generally expended and accounted for public assistance funds according to Federal
regulations and FEMA guidelines. However, its claim for projects 00036 and 99922 included
$2,206 in unsupported force account labor costs (FEMA’s share – $1,655). The City claimed
$724 for project 00036 and $1,482 for project 99922 for 64 overtime hours that were not
supported with payroll records. The hours pertained to employees in the City’s Utilities and
Police Departments. According to Federal regulation 44 CFR 13.20, the City is required to
maintain accounting records that identify how FEMA funds are used, and to ensure that
accounting records be supported by source documents such as payrolls, and time and attendance
records. Since the City could not produce documentation proving the hours were actually
performed, we question the $2,206 in unsupported force account labor costs

                                   RECOMMENDATION

We recommend that the Regional Director, in coordination with OES, disallow $2,206 in
questionable costs.

             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with City and OES officials on November 22, 2002. These
officials concurred in principle with the finding and recommendation. We also discussed the
results of our audit with Region IX officials on December 3, 2002.

Pursuant to FEMA Instruction 1270.1, please advise this office in writing by February 18, 2003,
of actions taken to implement our recommendation. Should you have any questions concerning
this report, please contact me at (510) 627-7011. Key contributors to this assignment were
Humberto Melara and Apolinar Tulawan.




                                              2
                                                                     Exhibit


                     Schedule of Projects Audited
                    City of Sacramento, California
                  FEMA Disaster Number 1155-DR-CA


                                 FEMA           Final
   Project/      Amount       Adjustments      Amount      Amount
Primary DSR      Claimed      at Closeout      Awarded    Questioned
Large Projects
    00036        $157,406         $ 0          $157,406     $ 724
    98463         211,000         $478          211,478          0
    99922         555,823            0          555,823      1,482
 Subtotal        $924,229         $478         $924,707    $2,206

Small Projects
   00004         $ 31,260         $   0        $ 31,260         0
   99924           29,766             0          29,766         0
  Subtotal       $ 61,026        $    0        $ 61,026    $    0

    Total        $985,255         $478         $985,733    $2,206




                                 3
